      Department of Homeland Security





        Department of Homeland Security’s FY 2012 

         Compliance with the Improper Payments 

           Elimination and Recovery Act of 2010 





OIG-13-47                                       March 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov

                                      MAR 12 2013

MEMORANDUM FOR:              Stacy Marcott
                             Deputy Chief Financial Officer
                             Office of Chief Financial Officer

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     DepartmentfoffHomelandfSecurity’sfFYf2012fCompliancef
                             withfthefImproper Payments Elimination and Recovery Act
                             of 2010
ff
Attached for your action is our final report, DepartmentfoffHomelandfSecurity’sfFYf2012f
CompliancefwithfthefImproper Payments Elimination and Recovery Act of 2010.ffWe
incorporated the formal comments from the Departmental GAO-OIG Liaison Office in
the final report.

The report contains eight recommendations aimed at improving the overall effectiveness
of the improper payment reduction program. The Departmental GAO-OIG Liaison Office
concurred with all the recommendations. Based on information provided in the
Department’s response to the draft report, we consider all recommendations resolved.
Once your office has fully implemented the recommendations, please submit a formal
closeout letter to us within 30 days so that we may close the recommendations. The
memorandum should be accompanied by evidence of completion of agreed-upon
corrective actions and of the disposition of any monetary amounts.

Consistent with our responsibility under the InspectorfGeneralfAct, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2


   Results of Audit .................................................................................................................. 6


              DHS’ Compliance with IPERA .................................................................................. 6

              DHS’ Controls over Improper Payment Testing and Reporting ............................. 6

              Recommendations ............................................................................................... 11 

              Management Comments and OIG Analysis ......................................................... 12 


   Appendixes
              Appendix A:          Objectives, Scope, and Methodology............................................ 15 

              Appendix B:          Management Comments to the Draft Report ............................... 17 

              Appendix C:          Major Contributors to This Report ................................................ 22 

              Appendix D:          Report Distribution ........................................................................ 23 


   Abbreviations
              AFR                   Annual Financial Report
              CBP                   U.S. Customs and Border Protection
              CFO                   Chief Financial Officer
              DHS                   Department of Homeland Security
              ePMO                  electronic Program Management Office
              FEMA                  Federal Emergency Management Agency
              FY                    fiscal year
              ICE                   U.S. Immigration and Customs Enforcement
              IPERA                 ImproperfPaymentsfandfEliminationfRecoveryfActfoff2010f
              IPIAf                 ImproperfPaymentsfInformationfActfoff2002
              NPPD                  National Protection and Programs Directorate
              OIG                   Office of Inspector General
              OMB                   Office of Management and Budget
              PAR                   Performance and Accountability Report
              RM&A                  Risk Management and Assurance
              TSA                   Transportation Security Administration
              USCG                  United States Coast Guard


www.oig.dhs.gov                                                                                                                 OIG-13-47 

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   In fiscal year 2010, the Federal Government’s total improper payment amount was at a
   high of $121 billion. In that same year, Congress passed the ImproperfPaymentsf
   EliminationfandfRecoveryfActfoff2010 in an effort to reduce improper payments. Since
   fiscal year 2010, the Federal Government’s total improper payment rate has declined to
   $115 and $108 billion for fiscal years 2011 and 2012, respectively. In addition to
   reducing improper payments, the Act requires each agency’s Inspector General to
   annually determine if the agency is in compliance with the Act.

   Our audit objective was to determine whether the Department of Homeland Security
   (DHS) complied with the Act. In addition, we also evaluated the accuracy and
   completeness of DHS’ improper payment reporting and its efforts to reduce and recover
   improper payments for fiscal year 2012.

   We contracted with the independent public account firm, KPMG LLP, to determine
   whether DHS complied with the Act. KPMG LLP did not find any instances of
   noncompliance with the Act.

   We reviewed the accuracy and completeness of DHS’ improper payment reporting and
   its efforts to reduce and recover improper payments. DHS needs to improve internal
   controls to ensure the accuracy and completeness of improper payment reporting.
   Specifically, it needs to improve its review processes to ensure that the risk assessments
   properly support the components’ determination of programs susceptible to significant
   improper payments. Furthermore, DHS needs to adequately segregate duties and
   improve its policies and procedures to identify, reduce, and report improper payments.

   We made eight recommendations that if implemented would improve the accuracy and
   completeness of DHS’ improper payment reporting and improve its efforts to recover
   any overpayments. The Department concurred with all of the recommendations.




www.oig.dhs.gov                                1                                        OIG-13-47

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Background
   DHS’ mission is to counter terrorism and enhance U.S. security; secure and manage U.S.
   borders; enforce and administer U.S. immigration laws; protect cyber networks and
   critical infrastructure; and ensure resilience from disasters. In fiscal years (FY) 2011 and
   2012, DHS paid $63.6 billion and $68.1 billion, respectively, in support of its mission.
   DHS identified 12 programs as high risk for improper payments based on FY 2012 risk
   assessments and FY 2011 payment sample testing. Out of the $11.2 billion payments
   for these high-risk programs, DHS estimates it made a total of $203 million in improper
   payments, a 1.82 percent error rate.

   On July 22, 2010, the President signed Public Law 111-204, ImproperfPaymentsf
   EliminationfandfRecoveryfActfoff2010 (IPERA). The term improper payment—

       A.	 means any payment that DHS should not have made or that DHS made in an
           incorrect amount under statutory, contractual, administrative, or other legally
           applicable requirements; and
       B.	 includes any payment to an ineligible recipient, any payment for an ineligible
           service, any duplicate payment, payments for services not received, and any
           payment that does not account for credit for applicable discounts.1

   IPERA requires that the head of each agency periodically review all programs and
   activities administered, and identify the programs and activities that may be susceptible
   to significant improper payments. These reviews shall take into account risk factors
   likely to contribute to the susceptibility of significant improper payments. IPERA
   considers a program susceptible to improper payments if improper payments in the
   program or activity in the preceding fiscal year exceeded $10 million and account for
   2.5 percent of program outlays.

   With respect to each program identified as susceptible to significant improper
   payments, the head of the relevant agency shall produce a statistically valid estimate of
   the improper payments made by each program and activity, and include those estimates
   in the accompanying materials to the annual financial statements. For FY 2012, DHS
   reported an improper payment estimate of $203 million from 12 programs across 4
   components.


   1
    The Office of Management and Budget (OMB) Circular A-123, Appendix C, “RequirementsfforfEffectivef
   MeasurementfandfRemediationfoffImproperfPayments,”fApril 14, 2011, also requires a payment to be
   considered an improper payment when an agency’s review is unable to discern whether a payment was
   proper as a result of insufficient or lack of documentation.


www.oig.dhs.gov                                      2	                                           OIG-13-47

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Table 1. DHS FY 2012 Estimated Improper Payment Amounts and Rates 

                    DHS Component                   Estimated   Improper   Improper
                                                    Payment     Payments   Payment
                                                   Population ($ millions) Rate (%)
                                                   ($ millions)
   U.S. Customs and Border Protection
       Border Security Fencing                         $197         $0       0.03%
       Refund and Drawback                            $1,343        $0       0.01%
   Federal Emergency Management Agency
       Disaster Relief Program – Individuals and       $880         $3       0.29%
       Households Program
       Disaster Relief Program – Vendor Payments       $494        $15       3.09%
       Insurance – National Flood Insurance            $794         $6       0.75%
       Program
       Grants – Public Assistance Programs            $2,990        $9       0.31%
       Grants – Homeland Security Grant Program       $1,472       $15       1.00%
       Grants – Assistance to Firefighters Grants      $471         $8       1.60%
       Grants – Transit Security Grants Program        $196         $3       1.77%
       Grants – Emergency Food and Shelter             $45          $1       2.51%
       Program
   U.S. Immigration and Customs Enforcement
       Enforcement and Removal Operations             $1,570      $133       8.47%
   National Protection and Programs Directorate
       Federal Protective Service                      $733        $10       1.37%
   DHS-All Programs                                  $11,185      $203       1.82%
   Source:f Data from DHS FY 2012 Annual Financial Report. DHS calculated its FY 2012 estimated improper
   payment rates using FY 2011 payment data.

   The Office of Management and Budget (OMB) issued Circular A-123, Appendix C,
   “RequirementsfforfEffectivefMeasurementfandfRemediationfoffImproperfPayments,”
   parts I and II, April 14, 2011, as guidance for agencies to implement the requirements of
   IPERA. This guidance includes responsibilities for the DHS Inspector General to
   determine DHS’ compliance with IPERA. To determine compliance with IPERA, the DHS
   Inspector General should review the agency’s Performance and Accountability Report
   (PAR) or Annual Financial Report (AFR) and any accompanying information to ensure
   that DHS has met IPERA reporting requirements.

   In addition, the DHS Inspector General should also evaluate the accuracy and
   completeness of agency reporting, and evaluate agency performance in reducing and
   recapturing improper payments.



www.oig.dhs.gov                                      3                                             OIG-13-47

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



   We reviewed the processes and procedures for DHS and the following DHS components:

       •   United States Coast Guard (USCG);
       •   U.S. Customs and Border Protection (CBP);
       •   Federal Emergency Management Agency (FEMA);
       •   U.S. Immigration and Customs Enforcement (ICE);
       •   National Protection and Programs Directorate (NPPD); and
       •   Transportation Security Administration (TSA).

   On February 25, 2012, the DHS Risk Management and Assurance Division (RM&A
   Division) issued version 2.0 of its ImproperfPaymentsfReductionfGuidebook (Guidebook).2
   This Guidebook supports the Department’s efforts to identify, reduce, report, and
   recoup improper payments. It also provides DHS components with instructions for
   complying with IPERA, Executive Order 13520, and OMB guidance for the
   implementation of IPERA.




   2
    Previously known as DHS Office of Chief Financial Officer, Internal Control Program Management Office
   or as DHS Office of Chief Financial Officer, Internal Control and Risk Management.


www.oig.dhs.gov                                       4                                             OIG-13-47

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   The diagram below shows the process DHS components are required to follow to
   identify, estimate, report, and recover improper payments.




   Source: Information obtained from the DHS ImproperfPaymentsfReductionfGuidebook, Office of
   Chief Financial Officer, Risk Management and Assurance Division Office.




www.oig.dhs.gov                                5                                        OIG-13-47

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Results of Audit
   To comply with IPERA, an agency is required to conduct risk assessments and report and
   publish the results of selected program testing in its AFR.3 It must also achieve and
   report improper payment rates of less than 10 percent for each program. KPMG LLP
   (KPMG) did not find any instances of noncompliance with IPERA.

   Additionally, we reviewed the processes and procedures by which DHS estimates its
   annual improper payment rates. Based on our review, we determined that DHS needs
   to improve controls to ensure the accuracy and completeness of improper payment
   reporting.

           DHS’ Compliance with IPERA

           We contracted with KPMG to determine whether DHS complied with IPERA in
           FY 2012. KPMG audited DHS to determine whether it met the following
           requirements prescribed by IPERA:

                  •	 Published an AFR and accompanying materials required by OMB on the
                     agency website;
                  •	 Conducted required program-specific risk assessments;
                  •	 Published improper payment estimates for high-risk programs;
                  •	 Published programmatic corrective action plans;
                  •	 Published, and has met, annual reduction targets for programs at risk;
                  •	 Achieved and reported a gross improper payment rate of less than
                     10 percent for all programs tested; and
                  •	 Reported on its efforts to recover improper payments.

           KPMG did not find any instances of noncompliance with the IPERA.

           DHS’ Controls over Improper Payment Testing and Reporting

           DHS needs to improve its controls over improper payment testing and reporting.
           Specifically, it needs to improve its review processes to ensure that the risk
           assessments properly support the components’ determination of programs
           susceptible to significant improper payments. Furthermore, DHS needs to
           adequately segregate duties and improve its policies and procedures to identify,


   3
    The risk assessments are annual reviews of all DHS-administered programs to identify programs
   susceptible to significant improper payments.


www.oig.dhs.gov                                      6	                                             OIG-13-47

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           reduce, and report improper payments. These conditions occurred because DHS
           guidance was unclear and DHS RM&A Division’s review was not comprehensive.

           Components’ Risk Assessments

           Components did not properly support the conclusions made in the risk
           assessments. Specifically, they did not perform interviews, properly support
           their risk templates, or obtain proper approval of the risk assessments. The DHS
           Guidebook requires the components to perform comprehensive risk
           assessments to identify programs susceptible to significant improper payments.
           To accomplish this task, DHS designed a detailed methodology that requires the
           components to perform the following activities:

                  1.	 Identify programs and determine population and scope of the 

                      component programs assessed. 

                  2.	 Conduct and document interviews.
                  3.	 Populate a risk template.4
                  4.	 Validate risk elements and weights for each component program 

                      evaluated. 

                  5.	 Identify programs at significant risk of improper payments.

           CBP and USCG officials stated that they did not conduct and document risk
           assessment interviews to gain a full understanding of the payment risks each
           program faced. According to a CBP official, they did not perform any interviews
           with the program offices to complete the risk assessments. USCG officials stated
           that they primarily relied on previous years’ risk assessments to complete the
           FY 2012 risk assessments. FEMA performed interviews but did not interview
           program managers or senior management as required by the DHS Guidebook.

           CBP, TSA, and FEMA did not properly support the conclusions made in the risk
           template. The DHS Guidebook requires the components to assign a weight (risk
           weight) to reflect the level of importance and influence of established risk
           conditions and a score (risk score) to the risk conditions to reflect the degree of
           risk present. The risk weight and risk score explanations should be included in
           the risk template and understandable to an outside reviewer.




   4
    The risk template is populated with quantitative values (program disbursements) and qualitative values
   (degree of risk) to determine programs susceptible to improper payments.


www.oig.dhs.gov                                       7	                                             OIG-13-47

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           CBP, TSA, and FEMA risk weight explanations did not provide enough
           information to be understandable to a DHS reviewer. Specifically:

                  •	 CBP’s risk template explained that it populated each risk condition based
                     on the perceived risk it concluded corresponded to each applicable
                     condition.
                  •	 TSA explained that the USCG Finance Center processed TSA payments
                     and contracts. TSA determined the weight of each risk condition based
                     on prior issues found during external audits, internal reviews, and input
                     from each program office.
                  •	 FEMA, with the exception of grants, did not provide any explanation
                     because it used the standard risk condition weights provided in the risk
                     templates.

           The explanations did not support why they gave certain weights for each risk
           condition or why risk weight distributions varied by program. In addition, FEMA
           and CBP changed the risk scores for some risk conditions but used the same
           explanation as FY 2011 to support the new score.

           The CBP Chief Financial Officer (CFO) or Deputy CFO did not review and sign off
           on CBP’s final risk assessment. According to the DHS Guidebook, risk assessments
           that are reviewed and approved by the DHS RM&A Division will undergo a last
           step before they are considered final: component CFO or Deputy CFO review
           and sign-off. According to CBP officials, the highest level of review and approval
           given to CBP’s risk assessment was by the Director, Financial Management
           Division, who is neither the CFO nor the Deputy CFO.

           Independence

           CBP did not have independent personnel developing and conducting the sample
           test plans. The DHS Guidebook indicates that payment reviewers should not
           have a role in processing or approving the specific payments under review. To
           the extent possible, payment reviewers should not have explicit annual
           performance goals related to reducing improper payments. OMB Circular A-123
           provides that control activities include policies, procedures, and mechanisms in
           place to ensure that agencies meet their objectives. This includes proper
           segregation of duties designed to reduce improper payments, and test payment
           files for improper payments. This segregation will promote independence and
           reduce the risk of inaccurate or incomplete improper payment data.




www.oig.dhs.gov                                   8	                                       OIG-13-47

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           CBP has two high-risk programs that required sample testing, Border Security
           Fencing and Refunds and Drawbacks.5 The Accounts Payable Directorate, who is
           directly responsible for reducing improper payments, oversaw the sample
           testing. The Accounts Payable Directorate designed the testing plan, distributed
           the sample to the testing teams, and reviewed the testing teams’ results prior to
           submitting the information to the DHS RM&A Division. In addition, the testing
           team for one of the high-risk programs was the original approving authority for
           the disbursements under review. This is a repeat finding and recommendation
           previously reported in FY 2011.6

           DHS Guidebook

           The DHS Guidebook provided components with background of applicable IPERA
           guidance and instructions to help the Department meet IPERA requirements.
           However, the components often needed to rely on additional instructions to
           complete the Guidebook requirements because of the inconsistency of its
           instructions. For example, the Guidebook devotes one section to discussing how
           the components determine the risk elements for evaluating each program.
           According to the Guidebook, the DHS RM&A Division provides components with
           a risk template, which they need to support with specific risk documentation.
           However, the DHS Guidebook does not explain what documentation the RM&A
           Division expected from the components to support the risk template. From
           other sections of the Guidebook, it can be inferred that because the risk
           template should be based on existing documentation and management
           knowledge, the results of program office and management interviews, the
           results of audit findings and review findings, and from other improper payment
           work, that this information should be properly documented as support for the
           risk template. The Guidebook does not specifically state RM&A Division’s
           expectations of specific risk documentation for the risk template. The DHS OIG
           also noted issues with the Guidebook during the FY 2011 DHS OIG IPERA audit.
           The RM&A Division made some improvements to the Guidebook in October
           2012, based on feedback from the components.

           DHS RM&A Division’s Reviews

           DHS RM&A Division’s reviews should have found that the components did not
           properly support their risk assessments. The Division’s responsibilities included

   5
    Reimbursement of duty paid for imported goods if exporting or returning goods to the supplier.
   6
    DHS OIG, “Department of Homeland Security’s Compliance with the ImproperfPaymentsfEliminationfandf
   RecoveryfActfoff2010,” OIG-12-48, March 2012.


www.oig.dhs.gov                                    9                                            OIG-13-47

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           issuing the DHS Guidebook; reviewing and approving the components’
           comprehensive risk assessment and sample test plans; and performing an
           independent review of the sample test results. It reviewed all of the
           components’ IPERA deliverables, which included risk assessments. The RM&A
           Division’s risk assessment review consisted of comparing the FY 2011 and
           FY 2012 risk weight and risk score narratives to identify differences. If the
           Division identified a difference between fiscal year information, it occasionally
           requested additional clarification from the component to understand the
           change. The Division review did not include obtaining and reviewing the
           summary interviews to ensure that the components properly supported the risk
           weights and risk scores. Reviewing the summaries would have also identified
           that CBP and USCG did not perform the required interviews.

           Because the DHS RM&A Division only analyzed the differences between FYs 2011
           and 2012 risk weight and risk score narratives, it did not identify that the risk
           weights and risk scores were not properly supported. It did identify some errors
           during their review; however, it approved the risk assessment without requiring
           the components to complete the corrections.

           The DHS RM&A Division also did not always follow the instructions or guidance
           that it issued. The Division’s DHS Guidebook required the components to submit
           a summary write-up of the interviews to the RM&A Division for review and the
           component CFO or Deputy CFO to review and sign off on the risk assessments
           before they were considered final. During the FY 2012 IPERA review, the RM&A
           Division determined that it would not request the summary interviews and that
           CFO approval was not a specific requirement of the DHS Guidebook. In addition,
           the Division required the components to use DHS’ electronic Program
           Management Office (ePMO) as a method for DHS RM&A to store, share, review,
           and approve IPERA documents online. However, the RM&A Division frequently
           reviewed and approved IPERA deliverables using email instead of using ePMO.
           For example, USCG received an email message from the RM&A Division
           approving the test plan in May, but the ePMO did not document RM&A
           Division’s approval until September.




www.oig.dhs.gov                                10                                       OIG-13-47

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendations

           We recommend that the Chief Financial Officer, Department of Homeland
           Security ensure that—

           Recommendation #1:

           DHS Risk Management and Assurance Division obtains and reviews the
           components’ interviews to ensure that the risk weights and risk scores are
           accurate and supported.

           Recommendation #2:

           DHS Risk Management and Assurance Division requires all components to
           provide detailed explanations and references to supporting documentation as to
           how they determined each risk weight and risk score.

           Recommendation #3:

           U.S. Customs and Border Protection and the United States Coast Guard perform
           interviews as part of the risk assessment process.

           Recommendation #4:

           Federal Emergency Management Agency performs interviews of the program
           managers or senior management.

           Recommendation #5:

           U.S. Customs and Border Protection’s risk assessment is reviewed and approved
           by the Chief Financial Officer.

           We also recommend that the Chief Financial Officer, Department of Homeland
           Security:

           Recommendation #6:

           Modify the DHS Guidebook to add clarification that explicitly describes how to
           complete the components’ risk assessments.




www.oig.dhs.gov                               11                                        OIG-13-47

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Recommendation #7:

           Develop and implement procedures to ensure the approval of risk templates
           only after the components have made all corrections.

           Recommendation #8:

           Develop standard operating procedures that clearly identify how the IPERA
           reviews and approvals will be coordinated with the components.

           Management Comments and OIG Analysis

           A copy of DHS’ response in its entirety is included as Appendix B. The
           components also provided technical comments and suggested revisions to our
           report in a separate document. We reviewed the technical comments and made
           changes in the report when appropriate.

           DHS acknowledged that it is still working to close the two remaining
           recommendations from the FY 2011 audit. Those recommendations required
           DHS to improve personnel independence in the testing phase and enhance the
           Department’s recovery auditing efforts.7 DHS plans to have FY 2011 corrective
           actions completed by September 30, 2013. For the FY 2012 audit, DHS
           concurred with all eight recommendations and has begun to formulate plans to
           implement the recommendations contained in the report. A summary of the
           responses and our analysis follows.

           Management Response to Recommendation #1: DHS concurs. DHS has begun
           action to address this recommendation. In February 2013, as part of its FY 2013
           risk assessment reviews, the RM&A Division formally requested the interview
           materials from all components. The RM&A Division will review the interview
           material to ensure that risk weights and scores submitted by the components
           are accurate and appropriately supported. DHS estimates that the RM&A
           Division will have all reviews completed by March 29, 2013.

           OIG Analysis: The recommendation will remain open and resolved until we have
           reviewed the risk weights and risk scores with the supporting interviews.



   7
    DHS OIG, “Department of Homeland Security’s Compliance with the ImproperfPaymentsfEliminationfandf
   RecoveryfActfoff2010” OIG-12-48, March 2012.


www.oig.dhs.gov                                    12                                           OIG-13-47

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Management Response to Recommendation #2: DHS concurs. To address this
           recommendation, the RM&A Division has begun to review the submissions and
           coordinated with the components when necessary to ensure that submitted risk
           weights and scores are accurate and adequately supported. DHS estimates that
           the RM&A Division will have all reviews completed by March 29, 2013.

           OIG Analysis: The recommendation will remain open and resolved until we have
           reviewed the risk weights and risk scores with the supporting documentation.

           Management Response to Recommendation #3: DHS concurs. DHS has already
           taken action to address this recommendation. Specifically, CBP will keep
           separate interview notes, which will be available to independent reviewers,
           rather than directly integrating interview findings into the risk assessment, as
           was done in FY 2012. USCG will conduct interviews, validate data, and update
           the risk conditions. DHS estimates that the interviews will be completed by
           March 29, 2013.

           OIG Analysis: The recommendation will remain open and resolved until we have
           reviewed the CBP and USCG interviews.

           Management Response to Recommendation #4: DHS concurs. DHS estimates
           that FEMA will perform interviews of program managers and/or senior
           management by March 29, 2013.

           OIG Analysis: The recommendation will remain open and resolved until we have
           reviewed the FEMA interviews.

           Management Response to Recommendation #5: DHS concurs. DHS estimates
           that the CBP CFO will review and approve the FY 2013 risk assessment submission
           by March 29, 2013.

           OIG Analysis: The recommendation will remain open and resolved until we have
           reviewed the CBP risk assessment.

           Management Response to Recommendation #6: DHS concurs. DHS estimates
           that by March 29, 2013, the RM&A Division will update the DHS Guidebook to
           clarify what documentation is adequate and required to support the risk template.

           OIG Analysis: The recommendation will remain open and resolved until we have
           reviewed the DHS Guidebook.



www.oig.dhs.gov                               13                                       OIG-13-47

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           Management Response to Recommendation #7: DHS concurs. DHS is taking
           actions to address this recommendation. Specifically, the RM&A Division has
           developed procedures to ensure that requested corrections and adjustments are
           addressed before final approval and acceptance of risk assessments. DHS
           estimates that the procedures will be implemented by March 29, 2013.

           OIG Analysis: The recommendation will remain open and resolved until we have
           reviewed the procedures.

           Management Response to Recommendation #8: DHS concurs. DHS estimates
           that by March 29, 2013, the RM&A Division will have implemented additional
           standard operating procedures for the review and final approval of risk
           assessments.

           OIG Analysis: The recommendation will remain open and resolved until we have
           reviewed the procedures.




www.oig.dhs.gov                             14                                     OIG-13-47

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The audit objective was to determine whether DHS complied with the Improperf
   PaymentsfEliminationfandfRecoveryfActfoff2010. In addition, we also evaluated the
   accuracy and completeness of DHS’ improper payment reporting and its efforts in
   reducing and recovering improper payments for FY 2012.

   The scope of the audit is DHS’ FY 2012 efforts to comply with IPERA. We limited our
   scope to certain DHS components. We reviewed all components identified in DHS’ AFR
   for FY 2011 as vulnerable to significant improper payments based on the FY 2011 risk
   assessments and prior year payment sample testing. The components reviewed were
   the United States Coast Guard, U.S. Customs and Border Protection, Federal Emergency
   Management Agency, U.S. Immigration and Customs Enforcement, Transportation
   Security Administration, and National Protection and Programs Directorate.

   To understand DHS’ requirements under IPERA and DHS’ policies and procedures to
   meet those requirements, we obtained and reviewed relevant authorities and guidance
   including IPERA, OMB’s memorandum on implementing IPERA, and the DHS Improperf
   PaymentsfReductionfGuidebook. We also interviewed officials in DHS’ Office of Chief
   Financial Officer and the various components directly involved with IPERA
   implementation.

   We contracted with independent auditor KPMG LLP to determine DHS compliance with
   IPERA. The contract required that KPMG perform its audit in accordance with generally
   accepted government auditing standards. Those standards require that the auditors
   plan and perform the audit to obtain sufficient, appropriate evidence to provide a
   reasonable basis for their findings and conclusions based upon the audit objectives.

   At each component, KPMG performed the following:

       •   Obtained and read relevant authorities and guidance;
       •   Interviewed component management;
       •   Reviewed component policies;


www.oig.dhs.gov                               15                                       OIG-13-47

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


       •	 Reviewed components’ risk assessment processes;
       •	 Reviewed components’ sampling plans and methodologies; and
       •	 Reviewed components’ corrective action plans.

   At DHS, KPMG reviewed DHS’ FY 2012 AFR to determine compliance with reporting
   requirements.

   To evaluate the accuracy and completeness of DHS’ improper payment reporting, we
   performed the following procedures:

       •	   Reviewed components’ risk assessments;
       •	   Reconciled components’ risk assessments with FY 2011 gross disbursement data;
       •	   Reviewed sample test plans and results; and
       •	   Reviewed DHS’ internal controls over the processes and procedures used to
            estimate the improper payment rate, including the risk assessment process,
            testing, and reporting.

   We did not conduct any sample payment testing to validate DHS’ estimated improper
   payment rates reported in the FY 2012 AFR.

   To evaluate DHS’ performance in reducing and recapturing improper payments, we
   performed the following procedures:

       •	 Reviewed DHS’ corrective action plans; and
       •	 Determined recovery audits performed.

   We conducted this performance audit between August 2012 and January 2013 pursuant
   to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                              16                               	     OIG-13-47

                                           OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                                       u.s. Dtpartnltn l of lI orndand   S«urity
                                                                                                       Was blnjttOtl, DC lOS18




                                                                                        (I
                                                                                        ~"
                                                                                           Homeland
                                                                                           Security
                                                                                            .. ,i<t

                                                                   March 4, 2013


                  MEMORANDUM FOR;                     Anne L. Richards
                                                      Assistant Inspector General for Audit

                  FROM;                               Jim H. Crumpacker        \~fI           .   ~
                                                      Director                ~\1'
                                                      Departmental GAO-OIG Liaison Office

                  SUBJECT:                            Department of Homeland Security's FY 2012 Compl iance with the
                                                      Improper Payments Elimination and Recovery Act of2010
                                                      (Project No. 12-002-AUD-MGMT)

                  Thank you for the opportunity to review nnd comment on thi s draft report. We appreciate the
                  Office of Inspector General 's (010'5) work in conducting this statutorily required annual review
                  and issuing thi s report.

                  We are pleased to note that for the fourth year in a row, KPMG LLP, U,e Department's
                  independent auditor, has not identified any instances of noncompliance with the Improper
                  Payments Elimination and Recovery Act of2010 (lPERA), as amended. With respect to your
                  Fiscal Year (FY) 2011 audit i recommendations, we aCknowledge closure offourofU,e six
                  recommendations and advancement to closure on the remaining two.

                  Specificall y, the fi rst open recommendation relates to improving personnel independence in the
                  testing phase. We note the finding relnted to this recommendation has been partially addressed.
                  Last year's report identified independence issues for Headquarters and two Components; this
                  yea r's report identified only one Component. The second open recommendation relates to
                  enhancing the Department's recovery auditing efforts, where cost effective. We have found that
                  recovery auditing is not cost effective at the U.S. Secret Service because of securi ty restrictions
                  that necessitate all recovery audit work be perfonnerl on-site, the rel atively small size of the U.S.
                  Secret Service, and vendor feedback . We are working to improve our targeted rccovery audit
                  efforts for the U.S. Coast Guard (USCG) and its eross~serviced Componen ts (Le., the
                  Transportation Security Administration and the Domestic Nuclear Detection Office), and these
                  efforts will be completed by September 30, 2013.

                  The Department has enhanced its efforts to eliminate improper payments. For example, the
                  Federal Emergency Management Agency (FEMA), working closely with the DHS Chief
                  Financial Officer's Risk Management and Assurance Division (RM&A), continues to

                  t Department 0/ HOIII l'lmuf Secun"I)J'S Compliance with the Impropl!r Parmems ElimintJIion lind Rl'CO\'ery Act of
                  lOIO(OIG· 12-48. March 20 12).




www.oig.dhs.gov                                                          17                                                                        OIG-13-47

                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                  consistently reduce the estimated error rate for FEMA 's high-risk programs. Specifically, the
                  overall error rate dropped from 8.0 percent reported in FY 2009 to 1.7 percent in FY 2010. The
                  error rnte fell below the reduced agency target rate of 1.5 percent in FY 2011 and FY 2012,
                  2 years in adva nce of the FY 2014 requirement. This improvement is a result of continuous
                  focus and efforts by the RM&A and FEMA slaffs, who led and completed corrective action plans
                  to eliminate improper payments. Other FEMA improvements include adding applicant eligibil ity
                  edit checks, standardizing documentation requirements, and providing training on the root causes
                  of errors and steps to address payment risks.

                  The Department has also enhanced its efforts to eliminate improper payments above and beyond
                  the statutory and regulatory requirements. In FY 2012, RM&A stafT completed independent
                  reviews of Component payment sample test results. The resulting reports allowed us to confinn
                  findings and provide Componen t-specific and general recommendations to further improve the
                  accuracy and efficiency of payment testing. The Department has instituted severnl efforts to
                  improve payment controls and processes, and implemented the statutorily required " Do Not Pay
                  Portal" databases. This portal will allow DHS to leverage existing government databases to
                  identify and prevent potential improper payments. In addition, we have organ ized a Payment
                  Center Work Group, bringing together Department and Component experts in payment
                  management and processing, internal controls, and procurement to identify sources and causes of
                  improper payments and existing best practices, as well as to promote the implementation of those
                  practices.

                  Your FY 20 12 report contained eight recommendations with which the Department concurs.
                  Several of the recommendations require similar actions to close. The attached chart summarizes
                  the completed and planned actions we have identified to address each rccommendation. We
                  request that al l the recommendat ions be considered resolved and open.

                  SpecificalJy. 0 10 recommended that the Chief Financial Officer, Depanmcnt of Homeland
                  Security ensure that the:

                  Reco mmendation I: DHS Risk Management and Assurance Division obtains and reviews the
                  components' interviews to ensure the risk weights and risk scores are nceuratc and supported.
                  Estimated Completion Date (ECD): March 29, 2013.

                  Response: Concur. DH has already taken action to address this recommendation.
                  Specifically. Components were provided notice of thi s requirement during an Oclober 17, 2012
                  Workshop on the Departmcnt's FY 2013 update to the Improper Payments Reduction Guidebook
                  (Guidebook). Subsequently, RM&A requcsted interview materials from all Components on
                  February 4, 2013, as part of its FY 2013 risk assessment review. These materials are being
                  examined by RM&A staff to ensure risk weights and scores submitted by Components arc
                  accurate and appropriately supported.

                  Reco mmendation 2: DHS Risk Management and Assurance Division requires all components
                  to provide dctailed explanat ions and references to supporting documentation as to how they
                  detcnnined each risk weight nnd risk scorc.




                                                                 2




www.oig.dhs.gov                                                18                                                    OIG-13-47

                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




                  Response: Concur. DHS has already taken action to address this recommendation.
                  Specifically, the RM&A staff have reviewed the submissions and have extensively discussed
                  with and made additional requests to Components where necessary to ensure submitted risk
                  weights Dnd scores are accurate and adequately supponed. ECD: March 29, 20 13.

                  Recommendation 3: U.S. Customs and Border Protection [CBP] and the           u.s. Coast Guard
                  perfonn interviews as pan of the risk assessment process.

                  Respo nse: Concur. DHS has already taken action to address this recommendation.
                  S pecifically. the Internal Controls Branch within the CBP Offiee of the Chief Financial Officer
                  (OCFO) wi ll keep separate intelVicw notes, which will be avai lable to independent reviewers,
                  rather than directly integrating intclView findings into the risk assessment, as was done in FY
                  2012. The USCG OCFO will conduct intcrviews, validate data, and update risk conditions.
                  ECD: March 29, 2013.

                  Recommelldnlion4: Federal Emergency Managemenl Agency [FEMA] perfonns intclVicws of
                  the program managers or senior management.

                  Response: Concur. The FEMA OCFO will perfonn intelViews of program managers and/or
                  senior managemcnt. ECO: March 29, 2013.

                  Recommendntion 5: U.S. Customs and Border Protection's risk assessment is reviewed and
                  approved, at a minimum, by the Deputy Chief Financial Officer.

                  Response: Concur. CBP's Ch ief Financial Officer will sign the risk assessment submission
                  after RM&A's final review and approval. ECO: March 29, 2013.

                  Recommendation 6: Modify the DHS Guidcbook 10 add clarification Ihal explicitly describes
                  how to complete the components' risk assessments.

                  Res ponse: Concur. RM&A will update the Guidebook to ensure clarification of what
                  documentation is adcqurltc and required to suppon the risk tcmplatc. ECO: March 29, 2013.

                  Rcco mm cndalioll 7: Dcvelop and implcment procedures to ensure the approval of risk
                  templates only after the components have made all corrections.

                  Res ponse: Concur. OHS is taking action to address this recommendation. Speci fi cally, RM&A
                  devclopl."<I proct."<iurcs in support of the Guidebook. These proccdurl.'S will ensure that requested
                  corrections and adjustmcnts are addressed before finalllpproval and acceptance of risk
                  assessments. ECD: March 29, 2013.

                  Rccomm endalioll 8: Develop standard operating procedures that clearly identify how the
                  IPERA reviews and approvals will be coordinated with thc components.

                  Response: Concur. RM&A will include additional standard operating procedures related to lhe
                  coordination of review and final approval of risk assessments. ECO: March 29, 2013.



                                                                    3




www.oig.dhs.gov                                                  19                                                       OIG-13-47

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                  Again, thank you for the opportunity to review and comment on this druft report. Technical
                  com ments were previous ly subm itted under separate cover. Please feci free to contact me if you
                  have any questions. We look forward to working with you in the future.

                  Attachmcnt




                                                                  4




www.oig.dhs.gov                                                 20                                                    OIG-13-47

                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                21                    OIG-13-47

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Sandra John, Director
   Devon R. Houston, Audit Manager
   Hope E. Franklin, Auditor
   Kendra L. Loper, Auditor
   Irene Aultman, Auditor
   Natalie K. Fussell, Program Analyst
   Roger W. Thoet, Auditor
   John D. Kohler, Program Analyst
   Jeff H. Mun, Auditor
   Brian D. Smythe, Program Analyst
   Heidi Y. Adams, Intern
   Kevin Dolloson, Communications Analyst
   Ralleisha Dean, Independent Referencer




www.oig.dhs.gov                             22                  OIG-13-47

                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Component Liaison, U.S. Coast Guard
   Component Liaison, Customs and Border Protection
   Component Liaison, Federal Emergency Management Agency
   Component Liaison, Immigration and Customs Enforcement
   Component Liaison, National Protection and Programs Directorate
   Component Liaison, Transportation Security Administration
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Committee on Homeland Security and Governmental Affairs of the Senate
   Committee on Oversight and Governmental Reform of the House of Representatives




www.oig.dhs.gov                            23                                   OIG-13-47

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
